No. 20-505

IN THE
SUPREME COURT OF THE UNITED STATES

SHLOMIT RUTTKAMP
Petitioner,
VS.

THE BANK OF NEW YORK MELLON, ET AL.
Respondent(s),
PROOF OF SERVICE
I, the petitioner, Self-Represented Shlomit Ruttkamp, do swear or
declare that on this date, January 5, 2021, as required by Supreme Court
Rule 29 I have served the enclosed Petition for Rehearing on each party to
the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within three calendar days.
The names and addresses of those served are as follows:
Appellate Court of Connecticut
231 Capitol Avenue
Drawer Z, Station A
Hartford, CT 06106
The Honorable Edward Domnarski
Superior Court Judge
1 Court Street
Middletown, CT 06457
Juris No. 418032

Associate Justice Amy Coney Barrett
United States Supreme Court
1 First Street, N.E.
Washington, DC 20543

MCCALLA RAYMER LEIBERT PIERCE LLC
50 Weston Street
Hartford, CT 06120
Phone (860) 808-0606 Fax (860) 240-9180
Email: beniamin.staskiewicz@mccalla.com.
Juris No: 417736
TIMOTHY LODGE
P.O. Box 1204
Glastonbury, CT 06033
Phone: (860 585-5815 Fax: (860)582-5504
Email: LODGE912@AOL.COM
Juris No: 416965

WILLIAM J. RUTTKAMP
P.O. Box 661
Chester, CT 06412
Phone: (860) 581-3601
Email: bi!171709@yahoo.com

HOP ENERGY LLC D/B/A VALLEY OIL
REVELEY WILLIAM G. & ASSOCIATES LLC
P.O. Box 657
Vernon, CT 06066
Phone: (860) 872-0686
Fax: (860) 870-7991
Email: wgrevelev@sbcglohal.net
Juris No: 423840
GERALDINE ANN CHEVERKO
10 Bank Street Suite 700
White Plains, NY 10606
Phone: (914) 949-2909
Fax: (917) 949-5424
Email: gcheverko@eckertseamans.com
Juris No: 418503

Respectfully Submitted,

Executed on January 5, 2021

Pro se: Shlomit^Rriltt^anlr
P.O. Box 611
^
Westbrook, CT 06498
Phone: (860) 853-8859
Email: rshlomit@vahoo.com

